Audit Report

Office of Justice Programs Technology Grants to the University of New Hampshire, Grant Numbers 1999-DD-BX-0082 and 2001-LT-BX-K010 
Durham, New Hampshire

Audit Report GR-70-05-015


July 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of technology grant numbers 1999-DD-BX-0082 and 2001-LT-BX-K010 awarded by the Office of Justice Programs (OJP) to the University of New Hampshire (UNH).  The purpose of the OJP grants awarded to the UNH is to fund the research and development efforts of the Consolidated Advanced Technologies for Law Enforcement Program (CAT Program) located at the UNH.  The CAT Program is addressing problems with the integration of electronic devices within police vehicles and in the network communications between police vehicles and law enforcement agencies throughout the state.  The CAT Program is responsible for researching and developing the Project54 system that is currently integrating software systems and in-vehicle hardware devices such as voice and data radio communications and special purpose devices including lights, radar, and siren units.  Project54 is a fully integrated voice-operated police vehicle system.1
From our audit, we determined that the UNH did not fully comply with the grant requirements we tested.  We found that for one of the grants, the UNH had funds remaining after the grant expired that OJP had not deobligated.  We also found that the UNH did not exercise adequate management and control over its grant budgets because it did not obtain prior written approval from OJP for changes to the approved grant budgets involving both direct and indirect costs.  We also identified internal control weaknesses in grant expenditures that the UNH could not fully support or were outside the scope of the grants.  As a result of the deficiencies identified on the next page, we are recommending $1,220,304 of grant funds be put to better use and questioning an additional $577,605 of grant funds received.2  We are reporting total dollar-related findings of $1,797,909, which is about  17 percent of the total funding for both grants.  


The UNH did not spend all of the available funds under grant number 2001-LT-BX-K010, and the grant has expired with $1,220,304 of funds remaining to be deobligated.

The UNH did not exercise adequate management and control over its grant budgets for direct and indirect costs, resulting in a total of $363,895 of questioned costs for both grants.  

The UNH charged $165,208 of direct cost expenditures to the grants for purchases without adequate supporting documentation.    

The UNH charged $48,502 of direct cost expenditures to the grants for purchases that were not approved in its grant budgets.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.



Footnotes

Project54 is being deployed in police vehicles by the UNH with funding from a Community Oriented Policing Services grant, and that grant is the subject of a separate audit.  

	The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs and funds to better use.